    National Science Foundation
     Office of Inspector General




                     Confidential
                 Investigation Report
               Case Number A05090067
                                  9 May 2007


This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
                                                                                  $s
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. 552,552a.

                                                                                 NSF OIG Form 22b (1 1/06)
                                       Executive Summary

                                              Inquiry

OIG's inquiry established that:

       copied text and figures appeared in the subject's proposal submitted to NSF; and
       the copied text was the same as appeared in a proposal by other researchers that the
       subject had reviewed for NSF.

                                           Investigation

The Investigation Committee of the University:

       concluded that the subject copied text and figures into his proposal submitted to NSF; and
       concluded that the copied text originated in the proposal that the subject had been asked
       to review for NSF; and
       concluded that the subject's actions were intentional plagiarism and therefore constituted
       scientific misconduct.

                                            Conclusions

OIG concurs with the University assessment.

       The Act: Subject plagiarized several pages of text and several figures into his NSF
       proposal.
       Intent: The subject acted intentionally.
       Standard of Proof: A preponderance of the evidence supports the conclusion that his
       acts were a significant departure from accepted practices and therefore constitute research
       misconduct.

                                         Recommendations

        Make a finding of research misconduct
        Send a letter of reprimand to the subject
        Debar the subject from receiving Federal funds for a period of 3 years.
        Require that the subject submit assurances to NSF OIG for a period of 3 years after
        debarment
        Prohibit the subject, for a period of 3 years, from serving as a peer reviewer of proposals
        Provide certification to NSF OIG that he has attended an ethics training class.
                                                OIG's Inquiry

         We received an allegation that an NSF proposal' submitted by the subject contained text
and figures copied from a previously submitted NSF proposal.2 Our analysis indicated that
several pages of the subject's proposal (including four figures), and most of the references3 were
apparently copied from the source document. We wrote to the subject to obtain his perspective
o f the allegation (Tab I). The subject did not reply to our letter, despite repeated contacts. The
amount of copied text and figures was sufficient to advance from inquiry to investigation.
Consistent with our practice, we referred the investigation to the subject's university4 (Tab 2).

                                 Universib's Inquiry and Investigation

       The University convened an Investigation Committee (IC) to review the matter. At the
conclusion of its investigation, we received a copy of the IC report and letters that describe
adjudicative action taken by the University (Tab 3). Based on our review of the IC report, we
conclude that the IC followed reasonable procedures in its investigation, and that its report is
accurate and complete.

        The IC examined the subject's NSF proposal, and interviewed the subject. During the
interview, the subject provided a written presentation to the IC that addressed questions posed in
our original inquiry letter (Tab 4). In his written presentation to the IC, the subject admits
copying text and figures from the source proposal,5 but claims that the copying was
unintentional.

       The subject explained that, in 2003, he served on an NSF panel as lead reviewer of the
source proposal.6 The subject claimed that he cut-and-pasted sections of text (including figures)
from the source proposal (a pdf document made available to him as a reviewer) and then saved
them as Word documents in his personal computer. The subject explained that he considered
those sections of the proposal to be weak, and wanted to have those sections and notes available
to him during the preparation of his reviews7

       The subject stated that he later became aware of a new approach to mathematical
modeling that could be used to address the same research problem as in the source proposal.8
The subject used the previously saved Word documents in preparing his own 2005 NSF


   Redacted.
2
   Redacted.
3
   The apparently copied references include the typographical and formatting errors present in the original document
references
   Redacted.
   The written presentation from the subject is at Tab 4.
   NSF records confirm that the subject served as reviewer for thls proposal. NSF records hrther indicate that the
source proposal was one of approximately 140 proposals that the subject requested be copied to a compact disc.
7
   The copled materials include text, figures, and references. The subject states, however, that he used an NSF-
owned computer to prepare his review rather than his personal computer.
* A computer model was developed by (redacted), who is listed in the subject's proposal as a collaborator. The IC
concluded that (redacted) did not substantially participate in the preparation of the subject's NSF proposal.
proposal. The subject stated that he was looking for "an easy wrapper around my part."g The
subject claimed that he did not remember that these texts and figures were not his own.

        The IC asked the subject if it was his practice to take such extensive note^"'^ on
proposals that he was asked to review, and the subject stated that it was not. His typical process
is to make notes on a printed copy of the proposal. In this special instance, the subject copied
text and figures into his own personal computer without labeling them as taken from the
reviewed proposal. The subject stated that he has no specific recollection of how the copied text
and figures came to be reassembled into his proposal, and was not concerned that the text and
figures he used had no apparent origin.

        The subject was asked if he recognized the style of writing in the copied text as different
from his own; he said that the style was different from his own, but that this realization elicited
no action on his part. The subject suggested that the documents may have been used as part of
an incomplete proposal on which he worked a year earlier, but he was unsure of that as he had
deleted all records of that work from his computer.

        The IC asked the subject if figures in his submitted proposal were copied from the
alleged source proposal. The subject admitted that the figures were copied, but argued that he
                           9
could have produced e uivalent figures." The subject also claimed that most of the copied text
was "routine material," but then offered no explanation as to why such material would be
included in his own proposal. The subject was asked why, if he knew the copied text was a
"weakness" in the original proposal, he would choose to reuse them without pointing out their
weakness. The subject explained that there were no publications that could be referenced to
document the weakness in the original research work.

        The IC examined nine other proposals submitted by the subject since 2000; it did not
uncover any evidence of plagiarism in those proposals. The IC also examined the subject's
publications of the past ten years, and found no evidence of plagiarism in those publications.

       The IC discussed whether the evidence shows that the subject acted recklessly,
knowingly, or intentionally. The IC concluded that the subject's actions were intentional,
considering his actions involved copying large amounts of text, and storing it on a personal
computer for an extended period. The IC did "not find it credible that an author would fail to
recognize so much text and so many figures as coming from another s ~ u r c e . " 'The
                                                                                   ~ IC
concluded that this practice was a significant departure from the accepted practices of the
research community.l 4


    Subject's interview transcript, page 7 (Tab 5).
'O   The subject describes his copied and converted sections of texts and figures as "notes;" subject's interview
transcript, page 1 (Tab 5).
II
     This claim by the subject included a figure for which the attribution was apparently fabricated. Figure I in his
proposal contains the attribution (redacted). However, the same figure appears in the earlier proposal that the
subject reviewed for NSF in 2003.
 12
     Subject's interview transcript, page 11 (Tab 5).
 l 3 IC report, page 4 (Tab 3).
 14
     IC report, page 3 (Tab 3).
        In examining proposals submitted by the subject, the IC also noted that the subject
exhibited a pattern of misrepresentation of the status of research manuscripts as described in his
biographical sketch. The IC report generally states that papers listed as "in press" or "accepted"
in the proposal did not subsequently appear as publications, but did not identify specific
instances in its report.

        Based on its investigation, the University: 1) issued a finding of scientific misconduct by
the subject; 2) instituted a three-year period in which the subject is not allowed to submit any
proposals for external funding through the University; 3) required review of proposals by the
college Dean for two years following the end of the three-year exclusionary period; and 4)
placed a letter of reprimand in the subject's personnel file.

                                                OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.I5

                                                      The Acts

        The subject admits, and the University IC concluded, that the subject copied text and
figures from an IVSF proposal he was asked to review into his own NSF proposal. The subject
did not seek permission to use the material, nor did he cite the proposal as the source of the
overwhelming majority of text in his own proposal. Several pages of the subject's proposed
research are duplicated verbatim from the source proposal that the subject reviewed. While
claiming to the IC that he made special extensive "notes" from the reviewed proposal due to its
"weaknesses," the subject then re-used that same material in his own proposal to support his own
request for funding from NSF.

         Copying the words and figures of others, without citation, especially after being
entrusted with the source proposal for confidential review, is a deliberate unethical act by the
subject. In offering text written by others as his own words, in circumventing the effort required
to prepare his own proposal, and in providing those words as emblematic of his own
understanding of the research fie1d;the subject seriously departed from accepted standards of the
research community.

                                                          Intent

        We agree with the IC's conclusion that the subject intentionally copied the text and
figures into his NSF proposal. Although the subject states that his actions were
"~nintentional,"'~this claim is untenable. The subject claims that he copied onto his personal
computer the parts of the reviewed proposal that he saw as particularly weak, without noting
their authorship or provenance. That copying required both a cut-and-paste, and an explicit

l5   45 C.F.R §689.2(c).
16
     Subject's letter of April 10,2006, page 2 (Tab 4).
conversion of material into a Word document form. All of the text was preserved in a folder
maintained by the subject on his personal computer for several years. Then, the text, the
associated figures, and the associated references were reassembled by the subject into a new
proposal that mirrors the original source proposal.

                                         Standard o f Proof

        The IC concluded that a preponderance of the evidence supports the conclusion that the
subject acted intentionally when he copied text and figures into his submitted proposal, and that
his actions represent a significant departure from accepted practices. We concur with the IC's
conclusion. Therefore, based upon a preponderance of the evidence, we conclude that the
subject's actions constitute intentional plagiarism, and thus the subject committed an act of
research misconduct.       .

                                OIG's Recorninended Disposition

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern; (4)
whether it had a significant impact on the research record, research subjects, other researchers,
institutions or the public welfare; and (5) other relevant circumstance^.'^

                                            Seriousness

        The subject plagiarized extensive sections from a proposal he had been asked to peer
review. In doing so, he not only violated the standards of scholarship, but he also violated NSF's
confidentiality agreement with proposal reviewers. When confronted with the allegation, the
subject failed to respond to lVSF OIG inquiry letters, and then claimed before the University IC
that his extensive plagiarism was unintentional. That claim is undermined by the facts in the
case. The subject's actions were intentional, and represent serious violations of NSF policy and
ethical standards of scholarship.

                                          Degree o f Intent

       The IC concluded, and we agree, that the subject's intent with respect to the plagiarism
was intentional. This level of intent meets the level of intent required1' for a finding of research
misconduct.

                                               Pattern

       The IC found no pattern of plagiarism in the subject's other recent proposals and
publications.



l7   45 C.F.R. 9 689.3(b).
''   45 C.F.R. §689.2(~).,
                                       Impact on the research record

        The subject's plagiarized proposal was declined for funding, and the IC did not identify
plagiarism in any publications of the subject, or in any of his other proposals. We therefore
conclude that the impact on the research record was minimal.

                                        Aggravating factors

        In 1994, we investigated a previous allegation of plagiarism involving the subject. The
subject was the sole PI on a funded NSF proposal in which approximately 44 lines of text were
identical, or substantially similar, to text appearing in a review article. The review was cited in
the proposal, but not as a source for the verbatim text, which did not appear within quotation
marks. The investigation was referred to the University. After investigation, the University did
not make a finding of research misconduct. The 1994 University IC report (italics added) stated
that:

         [the subject] did not seriously deviate from the ethical standards of his scientific
         community, did not commit plagiarism, and is not guilty of scientific misconduct. He fell
         short of perfection in not making his degree of usage of [the Article] as clear as he could
         have, and in not more precisely attributing the figures he indicated to be adapted from
         [the original source]. [The subject] did not cross the threshold of seriousness in reference
         to "serious deviation from accepted practices." [The IC said that] the proceedings and
         this report [would] emphasize to [the subject] the importance of accuracy and careful
         citation when referencing scientiJic materials. The Committee believe[d] no further
         action against [the subject was] warranted and therefore, not recommended.

        We prepared a Report of Investigation, which was sent to NSF." NSF declined to make
a finding of research misconduct, but sent a letter to the subject exhorting him to prepare his
proposals according to the highest standards of scholarship (Tab 6).

        Thus, despite warnings that the subject'received from the University and from NSF, the
subject chose to violate the confidentiality of peer review by cutting, pasting, and saving text and
figures from a proposal that NSF had entrusted him to review in 2003. He then plagiarized this
same material into the proposal that he submitted to NSF in 2005.

                        The Subject's Response to Draft Investigation Report

       The subject was sent a draft copy of this report for comments. No comments were
received.



                                          Recommendation


l9   Redacted
Based on the evidence in this case, NSF OIG recommends that NSF:

send a letter of reprimand to the subject informing him that NSF has made a finding of
research misconduct; and

debar the subject from receiving Federal funds for a period of 3 years commencing on the
date of NSF's finding of research misconduct; and

require that the subject submit to NSF OIG assurances by a responsible official of his
employer that any proposals or reports submitted by the subject to NSF do not contain
plagiarized, falsified, or fabricated material for a period of 3 years after the debarment
period; and

prohibit the subject, for a period of 3 years, fromserving as a peer reviewer of proposals
submitted to NSF; and

provide certification to NSF OIG that' he has attended an ethics training class.
                                    NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD'
                            .   .     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Professor James Richman




       Re: Notice of Proposed Debarment and Notice of Research Misconduct ~etermination

Dear Professor Richman:

In 2005, the'university submitted a proposal to NSF entitled,
                                          r which you were identified as the Principal :
                                           nvestigative report prepared by NSF's Office o f
Inspector General ("OIG), this document contained plagiarized text.

In light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you fiom directly or indirectly obtaining the benefits
of Federal grants for a period of three years. During your period of debarment, you will be
precluded from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities. In addition, you will be prohibited from receiving
any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("FAR). Lastly, during your debarment period, you will be barred fiom having supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor, or consultant until September 1, 2010. Furthermore, for three years after the period of
debarment expires, I am requiring you to submit assurances by a responsible oficial of your
employer that any proposals o r reports submitted to NSF do not contain plagiarized, falsified, or
fabricated material. Lastly, by September 1,2008, you must complete an ethics training course
on plagiarism, and certify in writing to the OIG that you have done so.
                                                                                             Page 2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF . .." 45 CFR 5 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 3 689,1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

Your 2005 proposal contained verbatim and paraphrased text, as well as figures, from another
source document. By submitting a proposal to NSF that copies the ideas or words of another
without adequate attribution, as described in the OIG investigative report, you misrepresented
someone else's work as your own. In addition, you failed to properly acknowledge or credit the
authors of the source document in your proposal. Even worse, the source document from which
you plagiarized was a proposal that you were asked to peer review. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the applicable definition of
"research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
Inveitigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed intentionally and constituted a significant departure fiom accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and ILT) that can be taken in
response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group I1
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group IIIactions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or           .
suspension fiom participation in NSF programs. 45 CFR 689.3(a)(3).
                                                                                            Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was intentional;the fact that the
source document w8s a proposal you were asked to peer review; as well as the fact that you had
previously been warned in writing by NSF to ensure you comply with the scholarly standards of
attribution. I have also considered other relevant circumstances. 45 CFR 5 689.3(b).

I, therefore, take the following actions:

        For three years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

        ~ r b mthe date of this letter through September 1,2010, you are prohibited from serving as
        an NSF reviewer, advisor, or consultant.

        You are required to complete an ethics training course on plagiarism by September 1,
        2008. You must certify in writing to the OIG that such training has been completed.



Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b)     Violation of the terms of a public agreement or transaction so serous as to affect
                the integrity of an agency program, such as -

                (1)    A willful failure to perform in accordance withthe terms of one or more
                       public agreements or transactions; or
                ,..

                (3)    A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly plagiarized data in
a grant proposal submitted to the Found~ationThus, your action supports a cause for debarment
under 2 CFR 180.800(b).
                                                                                          Page 4
Length of Debarment

Debarment must be for a period cominensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of
three years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding of Research ~ i i c o n d u c t

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your information, we are attaching a copy
of the applicable regulations.



Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making.
  .  .             Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision,of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                     Page 5
Should you have any questions about the foregoing, please contact



                                                   Sincerely,

                                                 $&id0d
                                                   Kathie L. Olsen
                                                   Deputy Director

Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                 NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON. VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Professor James Richman




       Re: Debarment

Dear Professor Richrnan:

On September 21, 2007, the National Science 1:oundatlon ("NSF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
giving rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the
Notice that the proposed debarment is based upon your submission of a proposal to NSF that
contained plagiarized text. In that Notice, NSF provided you with thirty days to respond to the
proposed debarment.

Over thirty days have elapsed and IVSF has not received a response. Accordingly, you are
debarred until September 21,20 10. Debarment precludes you from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
subsidies, insurance, payments for specified use, and donation agreements.

Ln addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.

Lastly, please note that, in the Notice of Proposed Debarment, NSF also took the following
actions against you, which continue to remain in effect:

        For three years from the end of your debarment period, you are required to certify that
        proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
        material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
        Arlington, VA 22230.

        For three years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified; or fabricated material. Such
        assurances should be sent to the OIG.

    0   You are prohibited horn serving as an NSF reviewer, advisor, or consultant through
        September 1, 2010.

        You are required to complete an ethics training course on plagiarism by September 1,
        2008. You must certify in writing to the OIG that such training has been completed
        before you will be permitted to submit any further grant proposals for Federal funding.


If you have any quesuons regarding the foregoing, please contact           Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.



                                                      Sincerely,



                                                      Kathie L. Olsen
                                                      Deputy Director
